September 21, 2020
Arleigh P. Helfer III
Direct Dial 215-751-2430
Direct Fax 215-751-2205
E-Mail: AHelfer@Schnader.com

VIA ELECTRONIC FILING AND E-MAIL
Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Mahanoy Area School District v. B.L. (No. 20-255)

Dear Mr. Harris:
Respondent in the above-captioned matter writes to request a 60-day extension of
Respondent’s time to file a brief in opposition to the petition for writ of certiorari from October
1, 2020, to November 30, 2020. The petition for a writ of certiorari was submitted on August 28,
2020, and docketed on September 1, 2020.
Respondent seeks this extension in light of counsel’s competing personal and
professional obligations. First and foremost, the current public health emergency related to
COVID-19 has forced the closure of and/or significant restrictions on capacity at each of the
offices where Respondent’s counsel normally work. The public health emergency has also forced
closures of schools and child care facilities, requiring Respondent’s counsel to care for minor
children during this time. Meanwhile, in this context of reduced capacity, counsel for
Respondent remain committed to other upcoming filings.
Counsel for Respondent who work for the ACLU of Pennsylvania are also involved in
litigation and other matters related to the organization’s non-partisan Election Protection work
and thus require additional time following the November 3, 2020, election to prepare a response.
These circumstances would make it difficult for counsel to prepare the response in this
case before the current October 1 deadline.
There will be no prejudice to the Petitioner if this request is granted. The issue in the case
below was whether a school district violated the First Amendment rights of a student, B.L., when
it suspended her from the cheerleading team for one year for a social media post she made off
campus on her own time. The district court ordered Petitioner to reinstate B.L. to the
cheerleading team, and she continued to participate on the team until she graduated from high
school in June 2020. Any decision by this Court will not affect B.L.’s eligibility to participate on
the cheerleading team.

Scott S. Harris, Clerk
September 21, 2020
Page 2

Thank you for your attention to this matter.
Respectfully,
/s/ Arleigh P. Helfer III
Arleigh P. Helfer III
For SCHNADER HARRISON SEGAL & LEWIS LLP

